THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108-1598
(617) 727-2200
www.ma.gov/ago

MAURA HEALEY
ATTORNEY GENERAL

October 22, 2019
By Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Subj:

David Seth Worman et al. v. Maura T. Healey, Attorney General
of Massachusetts et al.,
No. 19-404 — Request for an Extension of Time

Dear Clerk Harris:
Pursuant to Supreme Court Rule 30.4, respondents in the above-referenced
case respectfully request a 45-day extension of time to file their brief in response to
the petition for a writ of certiorari. According to the online docket, petitioners filed
their petition for a writ of certiorari on September 23, 2019, and a response is
currently due on October 25, 2019. Should this Court grant respondents’ request for
a 45-day extension of time, the brief in response to the petition for a writ of
certiorari would be due on December 9, 2019. I have conferred with counsel for the
petitioners, who indicated that they assent this request.
This request is based on the need for review within the Massachusetts
Attorney General’s Office and the extent of my own professional obligations. A brief
in response to a petition for a writ of certiorari is scrutinized closely in our office.
The brief in this case will be subject to multiple rounds of evaluation and revision
by various attorneys, all of which will require time. While I am giving this matter
priority status, I also have several upcoming deadlines in other cases and will need
additional time to review and consider any response to amicus briefs that may filed
in support of the petitioners.
Thank you for your consideration.

Clerk Scott S. Harris
Subj: No. 19-404 - Request for Extension

October 22, 2019
Page 2 of 2
Sincerely,

Julia E. Kobick
Assistant Attorney General
Government Bureau
(617) 963-2559
julia.kobick@mass.gov
Counsel of Record
cc:

Counsel for the Petitioners:
John Parker Sweeney, JSweeney@bradley.com
James Michael Campbell, JMCampbell@campbell-trial-lawyers.com

